AAAAAAAAAAAAAAA




                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Inspections




  Inspection Report

 Lawrence Livermore National
 Laboratory Protective Force Authority




 DOE/IG-0820                                September 2009
                              Department of Energy
                                Washington, DC 20585
                                    September 4, 2009




MEMORANDUM FOR THE SECRETARY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Inspection Report on “Lawrence Livermore
                         National Laboratory Protective Force Authority”

BACKGROUND

The Department of Energy’s (Department) Lawrence Livermore National Laboratory
(Livermore) is a premier research and development institution supporting the Department’s
scientific, engineering, environmental, and national security activities. Livermore is
managed and operated under contract by Lawrence Livermore National Security (LLNS)
LLC, for the Department’s National Nuclear Security Administration (NNSA). In
accordance with the Department’s safeguards and security policy, Livermore maintains a
cadre of armed protective force officers to prevent and defend against malevolent acts.
Federal regulations establish protective force arrest authority to enforce specific laws
regarding property of the United States in the custody of the Department or its contractors.
Federal regulations and Department policy limit protective force officials’ arrest authority to
the performance of official duties related to Department property.

In November 2008, the Office of Inspector General received an allegation that
Livermore’s protective force was acting outside its established authority. Specifically, it
was alleged that the protective force violated the law and Livermore policy by responding
to a local Livermore Police Department radio call for assistance, which they overheard on
their police band radio. Protective force officers already away from the Livermore site
responded to a private residence and interacted with the public. It was also alleged that
while onsite at Livermore, the protective force violated employees’ privacy rights by
accessing the Department of Motor Vehicles database when conducting vehicle traffic
stops for administrative traffic violations. We noted that the protective force was using
the California Law Enforcement Telecommunication System (CLETS) to access the
Department of Motor Vehicles database. Information available from CLETS can include
vehicle registration information and criminal records, such as outstanding “wants and
warrants.” We initiated this inspection to review the facts and circumstances regarding
the allegation.

RESULTS OF INSPECTION

We concluded that Livermore’s protective force exceeded its authority when assisting a
local law enforcement agency at an offsite location. We also concluded that the
protective force may have exceeded its authority by accessing the CLETS database for
administrative traffic violations where they may detain individuals. Specifically, we
found that:
   The actions of Livermore’s protective force in providing armed assistance to local
    law enforcement outside Livermore’s perimeter was not consistent with Department
    policy. In general, Federal regulations and Department policy limit protective force
    officials’ arrest authority to the performance of official duties related to Department
    property. In reviewing Livermore’s policies and procedures regarding protective
    force officer duties, Livermore’s protective force did not have clear guidance on
    providing assistance to local law enforcement outside of Livermore’s perimeter.

   Livermore did not establish clear policies regarding protective force responsibilities
    and authority while conducting administrative vehicle stops for traffic violations as
    required by Department policy. While conducting administrative vehicle stops for
    traffic violations, the Livermore protective force queried CLETS records where there
    is the potential for detaining individuals for crimes outside of their arrest authority.
    Resultantly, this practice may present a liability to the Department.

We noted that by the end of our fieldwork, NNSA’s Livermore Site Office issued a
memorandum to LLNS stating that the protective force’s actions offsite are restricted to
the Department’s mission, and that the use of CLETS is not authorized for traffic
enforcement. We also noted that the Office of Health, Safety and Security issued a
memorandum to Department and NNSA security officials that reiterated existing policy
where offsite assistance to local law enforcement authorities by Department contractor
personnel is not permitted and that accessing law enforcement databases during
administrative traffic stops exceeds the scope of authorized duties.

We made two recommendations to the Manager, Livermore Site Office to address our
findings.

MANAGEMENT REACTION

In responding to a draft of this report, NNSA agreed with the recommendations and
provided information on corrective actions taken and planned.

We consider management’s agreement with the report recommendations to be responsive
to our report findings.

Attachment

cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
    Chief of Staff
    Manager, Livermore Site Office
    Director, Office of Internal Review (CF-1.2)
LAWRENCE LIVERMORE NATIONAL LABORATORY
PROTECTIVE FORCE AUTHORITY

TABLE OF
CONTENTS



             OVERVIEW

             Introduction and Objective                   1

             Observations and Conclusions                 2


             DETAILS OF FINDINGS

             Offsite Responses to Local Law Enforcement   3

             Traffic Violations                           4


             RECOMMENDATIONS                              5


             MANAGEMENT COMMENTS                          5


             INSPECTOR COMMENTS                           5


             APPENDICES

             A. Scope and Methodology                     6

             B. Management Comments                       7
Overview

INTRODUCTION                        The Department of Energy’s (Department) Lawrence Livermore
AND OBJECTIVE                       National Laboratory (Livermore) is a premier research and
                                    development institution supporting the Department’s scientific,
                                    engineering, environmental, and national security activities.
                                    Livermore is managed and operated under contract by Lawrence
                                    Livermore National Security (LLNS) LLC, for the Department’s
                                    National Nuclear Security Administration (NNSA).

                                    In accordance with the Department’s safeguards and security
                                    policy, Livermore maintains a cadre of armed protective force
                                    officers to prevent and defend against malevolent acts. Federal
                                    regulations establish protective force arrest authority to enforce
                                    specific laws regarding property of the United States in the custody
                                    of the Department or its contractors. Federal regulations and
                                    Department policy limit protective force officials’ arrest authority
                                    to the performance of official duties related to Department
                                    property1.

                                    In November 2008, the Office of Inspector General received an
                                    allegation that Livermore’s protective force was acting outside its
                                    established authority. Specifically, it was alleged that the
                                    protective force violated the law and Livermore policy by
                                    responding to a local Livermore Police Department radio call for
                                    assistance, which they overheard on their police band radio.
                                    Protective force officers already away from the Livermore site
                                    responded to a private residence and interacted with the public. It
                                    was also alleged that while onsite at Livermore, the protective
                                    force violated employees’ privacy rights by accessing the
                                    Department of Motor Vehicles database when conducting vehicle
                                    traffic stops for administrative traffic violations. We noted that the
                                    protective force was using the California Law Enforcement
                                    Telecommunication System (CLETS) to access the Department of
                                    Motor Vehicles database. Information available from CLETS can
                                    include vehicle registration information and criminal records, such
                                    as outstanding “wants and warrants.” We initiated this inspection
                                    to review the facts and circumstances regarding the allegation.




1
 In instances of fresh pursuit, protective force officials may be authorized for offsite pursuit and apprehension of
someone suspected of having committed an onsite offense.




Page 1                                                         Lawrence Livermore National Laboratory
                                                               Protective Force Authority
OBSERVATIONS AND   We concluded that Livermore’s protective force exceeded its
CONCLUSIONS        authority when assisting a local law enforcement agency at an
                   offsite location. We also concluded that the protective force may
                   have exceeded its authority by accessing the CLETS database for
                   administrative traffic violations where they may detain individuals.
                   Specifically, we found that:

                         The actions of Livermore’s protective force in providing
                          armed assistance to local law enforcement outside
                          Livermore’s perimeter was not consistent with Department
                          policy. In general, Federal regulations and Department
                          policy limit protective force officials’ arrest authority to the
                          performance of official duties related to Department
                          property. In reviewing Livermore’s policies and
                          procedures regarding protective force officer duties,
                          Livermore’s protective force did not have clear guidance on
                          providing assistance to local law enforcement outside of
                          Livermore’s perimeter.

                         Livermore did not establish clear policies regarding
                          protective force responsibilities and authority while
                          conducting administrative vehicle stops for traffic
                          violations as required by Department policy. While
                          conducting administrative vehicle stops for traffic
                          violations, the Livermore protective force queried CLETS
                          records where there is the potential for detaining
                          individuals for crimes outside of their arrest authority.
                          Resultantly, this practice may present a liability to the
                          Department.

                   We noted that by the end of our fieldwork, NNSA’s Livermore
                   Site Office issued a memorandum to LLNS stating that the
                   protective force’s actions offsite are restricted to the Department’s
                   mission, and that the use of CLETS is not authorized for traffic
                   enforcement. We also noted that the Office of Health, Safety and
                   Security issued a memorandum to Department and NNSA security
                   officials that reiterated existing policy where offsite assistance to
                   local law enforcement authorities by Department contractor
                   personnel is not permitted and that accessing law enforcement
                   databases during administrative traffic stops exceeds the scope of
                   authorized duties.




Page 2                                               Observations and Conclusions
Details of Findings


OFFSITE RESPONSES     We concluded that Livermore’s protective force exceeded its
TO LOCAL LAW          authority when assisting a local law enforcement agency at an
ENFORCEMENT           offsite location. Title 10, Code of Federal Regulations, Part 1047
                      (10 CFR §1047), limits protective force arrest authority to the
                      performance of official duties related to Department property.

                      In October 2008, two Livermore uniformed protective force
                      officers driving in a marked patrol car were returning from an
                      evening security check of a Livermore facility located in the city of
                      Livermore when they overheard on their radio a Livermore Police
                      Department officer’s call for emergency assistance related to a
                      domestic disturbance. Driving outside their normal patrol route to
                      a private residence, the protective force officers, while armed and
                      in uniform, assisted the local police officers. At the location, the
                      protective force officers provided incident scene perimeter security
                      and were in contact with the general public.

                      During the course of our review, we became aware of an additional
                      incident in 2008 where a protective force officer, using a
                      Livermore patrol car to take another officer to a medical
                      appointment in the city of Livermore, responded to a request from
                      a Livermore Police Department officer. The protective force
                      officer assisted the police officer in investigating the source of a
                      burglar alarm at a non-Department-related facility.

                      The Department’s Contractor Protective Force Manual (DOE M
                      470.4-3A) requires the establishment of clear and concise post
                      orders regarding officer responsibilities, assignments, and
                      operational requirements at a designated duty post. Our review of
                      post orders for Livermore’s protective force revealed that officer
                      offsite authority was unclear when collaborating with local law
                      enforcement. For example, a post order for offsite activities states
                      that if a protective force officer takes actions outside the scope of
                      10 CFR §1047, such actions shall be taken in a personal capacity
                      as a private citizen without the assurance of Livermore’s or LLNS’
                      defense and indemnifications. However, this same post order
                      states that in the event of an emergency request for assistance from
                      a peace officer to the protective force, a protective force officer
                      may respond. Livermore protective force officials told us that they
                      are authorized to assist local law enforcement offsite for
                      non-Department-related matters as private citizens under common
                      law. They indicated the principle of “posse comitatus” allows
                      local law enforcement to request private citizens for assistance.




Page 3                                                               Details of Findings
             We interviewed an official with the Department’s Office of
             Security Policy, who said that assisting local law enforcement as
             previously mentioned would be outside the protective force scope
             of employment. A Livermore Site Office official also opined that
             protective force officers cannot act offsite as private citizens under
             “posse comitatus” while on duty and in uniform, and that these
             actions with local law enforcement were outside the protective
             force responsibilities and authority. After we concluded our
             fieldwork in February 2009, the Livermore Site Office issued a
             letter to LLNS stating that, due to concerns with legal liability and
             officer safety, protective force activities offsite were restricted to
             Department interests.

TRAFFIC      We found that the protective force may have exceeded its authority
VIOLATIONS   by accessing the CLETS database for administrative traffic
             violations. Specifically, conducting criminal inquiries utilizing
             CLETS during administrative traffic stops may result in the
             detention of individuals for crimes outside of the protective force’s
             arrest authority. We determined that the protective force has the
             authority to conduct traffic stops on the Livermore premises. We
             further determined that the protective force also has the authority
             to query CLETS records, but the authority is silent on accessing
             CLETS during administrative vehicle stops.

             Protective force officers informed us that the protective force had
             established a practice of obtaining law enforcement information
             through the CLETS database during administrative vehicle stops.
             Further, a protective force official said that the protective force
             may detain an individual stopped for an administrative violation if,
             as a result of a CLETS inquiry, a “want or warrant” criminal
             response is received, regardless of whether the crime is within the
             scope of their protective force authority per the CFR.

             Protective force officers we interviewed further opined that in
             some instances Livermore’s protective force may detain someone
             for any want or warrant for the purpose of officer safety.
             Protective force officials said there is a “gray” area on what they
             should do if during an administrative traffic stop a CLETS report is
             received indicating that a want or warrant is outstanding. Senior
             Livermore Site Office officials also said this is a “gray” area, and
             that it may be problematic to detain someone for a want or warrant
             outside the authority provided by the CFR. Both Livermore and
             Livermore Site Office officials agreed that clarification on
             handling these types of situations is required.




Page 4                                                       Details of Findings
                  We concluded that the above conditions were caused because
                  Livermore had not implemented clear policies regarding protective
                  force officers’ responsibilities and authority while conducting
                  administrative vehicle stops for traffic violations. Our review of
                  Livermore’s post orders revealed that they did not clearly detail the
                  duties and authority for officers to access CLETS when conducting
                  vehicle stops for traffic violations. Of particular concern is that
                  there was no guidance stating when officers were allowed to obtain
                  a CLETS report for an administrative traffic violation, or what
                  officers were authorized to do should the CLETS report state that a
                  person has a want or warrant for criminal behavior.

                  We noted that after we concluded our fieldwork, the Livermore
                  Site Office issued a letter to LLNS, which stated, in part, that the
                  protective force is not authorized to utilize CLETS for
                  administrative traffic stops. Additionally, the Office of Health,
                  Safety and Security issued similar guidance to the Department in
                  response to a pre-decisional version of this report.

RECOMMENDATIONS   We recommend that the Manager, Livermore Site Office:

                  1. Ensure Livermore develops policies and procedures on
                     protective force authority offsite that corresponds to Federal
                     and Department regulations.

                  2. Ensure Livermore develops policies and procedures for
                     conducting traffic enforcement that addresses accessing the
                     CLETS telecommunication system.


MANAGEMENT        In comments on a draft of this report, management concurred
COMMENTS          with the report and its recommendations. We have included
                  management’s comments in Appendix B.

INSPECTOR         We consider management’s comments to be responsive to our
COMMENTS          report.




Page 5                                                     Recommendations
                                          Management and Inspector Comments
Appendix A

SCOPE AND     The fieldwork for this inspection was conducted between
METHODOLOGY   January 2009 and February 2009. As part of this inspection we
              conducted interviews, document reviews and analysis that
              included:

                 10 Code of Federal Regulations, Part 1047 “Limited Arrest
                  Authority and Use of Force by Protective Force Officers”;

                 DOE Manual 470.4-3, “Protective Force”;

                 DOE Manual 470.4-3A, “Contractor Protective Force”;

                 California penal and government codes;

                 Livermore protective force site policy orders; and,

                 Memorandums of Understanding with local law enforcement
                  agencies.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 6                                                Scope and Methodology
Appendix B




Page 7       Management Comments
                                                                    IG Report No. DOE/IG-0820

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Ms. Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
